APPENDIX A
(Judgment and Opinion of the United States Court of Appeals for the
Fifth Circuit)

APPENDIX B
(Judgment and Sentence of the United States District Court for the
Northern District of Texas)

Case 4:18-cr-00203-Y Document 118 Filed 03/27/19

Page 1 of 3 PageID 307

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:18-CR-203-Y(2)
Dan Cole, assistant U.S. attorney
William R. Biggs, attorney for the defendant

WILLIAM JAMES PAYTON

On November 20, 2018, the defendant, William James Payton, entered a plea of guilty to counts one and two
of the two-count indictment. Accordingly, the defendant is adjudged guilty of such counts, which involve the
following offenses:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE CONCLUDED

COUNT

18 U.S.C. §§ 1951(a) and 2

Interference with Commerce by
Robbery

March 22, 2018

1

18 U.S.C. §§ 924(c)(1)(A)
ii and 2

Using, Carrying, and Brandishing
a Firearm During a Crime of
Violence

March 22, 2018

2

The defendant is sentenced as provided in pages two through three of this judgment. The sentence is imposed
under Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission under Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $200.00 for counts one and two of the twocount indictment.
The defendant shall notify the United States attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment
are fully paid.
Sentence imposed March 26, 2019.

_______________________________
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE
Signed March 27, 2019.

19-10360.74

Case 4:18-cr-00203-Y Document 118 Filed 03/27/19

Judgment in a Criminal Case
Defendant: William James Payton
Case Number: 4:18-CR-203-Y(2)

Page 2 of 3 PageID 308
Judgment -- Page 2 of 3

IMPRISONMENT
The defendant, William James Payton, is hereby committed to the custody of the Federal Bureau of Prisons
to be imprisoned for a term of 51 months on count one and 84 months on count two of the two-count indictment, for
a total aggregate sentence of 135 months. This sentence is to run concurrently with any sentence imposed in Case
No. 1538171 in the 396th Judicial District Court, Tarrant County, Texas, which is related to the instant offense; but
consecutively to any sentence imposed in Case No. CR18-1326, County Court at Law, Douglas County, Nebraska;
and Case Nos. 1558761 and 1559010 in the 396th Judicial District Court, Tarrant County, Texas, as they are not
related to the instant offense.
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of 3 years
each on counts one and two of the two-count indictment to run concurrently.
While on supervised release, in compliance with the standard conditions of supervision adopted by the United
States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer in a manner and frequency directed by the Court or probation officer;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement, as directed by the probation officer.

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;

19-10360.75

Case 4:18-cr-00203-Y Document 118 Filed 03/27/19

Judgment in a Criminal Case
Defendant: William James Payton
Case Number: 4:18-CR-203-Y(2)

Page 3 of 3 PageID 309
Judgment -- Page 3 of 3

cooperate in the collection of DNA as directed by the probation officer, as authorized by the Justice
for All Act of 2004;
report in person to the probation office in the district to which the defendant is released within 72 hours of
release from the custody of the Federal Bureau of Prisons;
participate in mental health treatment services as directed by the probation officer until successfully
discharged, which services may include prescribed medications by a licensed physician, with the defendant
contributing to the costs of services rendered (copayment) at a rate of at least $25 per month;
refrain from any unlawful use of a controlled substance, submitting to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as directed by the probation officer pursuant
to the mandatory drug testing provision of the 1994 crime bill; and
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of alcohol
and all other intoxicants during and after completion of treatment, contributing to the costs of services
rendered (copayment) at the rate of at least $25 per month.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because the victim did not suffer any loss.

RETURN
I have executed this judgment as follows:

Defendant delivered on ___________________________ to ____________________________________
at ____________________________________________________________, with a certified copy of this judgment.

United States marshal

BY ________________________________
deputy marshal

19-10360.76

